BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-306
ROBERT OLAN AND THEODORE HUBER,

Petitioners,
V.

UNITED STATES OF AMERICA,

Respondent.
As required by Supreme Court Rule 33. l(h), I
certify that the Brief ofAmicus Curiae the Alternative
Investment Management Association, LTD., in
Support of Petition for Certiorari contains 4,589 words,
excluding the parts of the Brief that are exempted by
Supreme Court Rule 33. l(d).
I declare under penalty of perJury that the
foregoing is true and correct.
Executed on October 9, 2020.

DonnaJ. Wo
Becker Gallagher Legal ublishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

I Franklin Square
· 1300 I Street, NW, Suite 400E

Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

0

Notary Public

.,

